Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




   1993 MEDICARE BENEFICIARY
    SATISFACTION: MICHIGAN




           AUGUST 1993   OEI-05-92-00390
             EXECUTIVE                          SUMMARY


PURPOSE

This inspection was conducted to compare Michigan beneficiary satisfaction with the
Medicare program to beneficiary satisfaction nationwide.

BACKGROUND

Medicare is a Federal health insurance program for individuals age 65and older and
for certain categories of disabled people. The Health Care Financing Administration
(HCFA) within the Department of Health and Human Sezvices has responsibility for
the Medicare program. Private health insurance companies called intermediaries and
carriers contract with the Federal Government to sexvice claims for Medicare
payment. In Michigan, Blue Cross and Blue Shield of Michigan serves as both
intermediary and carrier.

Due to reports of problems with the Michigan Medicare Part B Carrier, HCFA
requested that the Inspector General conduct a satisfaction survey of Michigan
beneficiaries in comparison to beneficiary satisfaction levels nationwide.

FINDINGS

Overa& the responses of Michigan benejiciarin are similar to those offered by
benejkiaries nationally.

Seventy-five percent of beneficiaries nationwide and 72 percent of Michigan
beneficiaries think the Medicare program is understandable.   Eighty-three percent of
national and 82 percent of Michigan respondents said they were very or generally
satisfied with the way Medicare processed their claims.

Howeveq Michigan benejkiari.es are ik   satirjkd with the service thq receive when they
caU the& cani.er.

Twenty-two percent of Michigan beneficiaries compared to 14 percent of national
beneficiaries said they were dissatisfied with the service they received the last time
they called their carrier. Michigan beneficiaries most frequently mentioned “The line
was busy,” as a problem when calling the carrier.

Alvo, more Michigan than national beneficiaries consider the camkr a soume of
infoirnatibn about Medicare, bti freer actually contact the cam”e~

Forty percent of Michigan beneficiaries say they would go to the carrier for
information about Medicare compared to 32 percent nationally. However, only 24


                                            1
percent of Michigan beneficiaries say they have called the carrier in the past
compared to 29 percent nationally.


CONCLUSION

Our survey and past Contractor Performance Evaluation Program scores indicate that
beneficiary telephone service in Michigan could be improved.




                                            ii
                          TABLE                     OF CONTENTS

                                                                                                                        PAGE

Executive             SUMMARY              . . . . ..o . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..o...i


INTRODUCI’ION                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


    Overall, the responses of Michigan beneficiaries are similar to those offered by

    national beneficiaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..4


    Michigan beneficiaries are less satisfied With carrier telephone service . . . . . . . . . . 5


    More Michigan beneficiaries consider the carrier asourceof

    information about Medicare, but fewer actually contact the carrier                                  . . . . . . . . . . . . 7



CONCLUSION                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


APPENDICES


k      Bibliography . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


B: Methodology              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1


C. Non-response            analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . c-1


D: Questionnaire              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . D-1

                         INTRODUCTION


PURPOSE

This inspection was conducted to compare Michigan beneficiary satisfaction with the
Medicare program to beneficiary satisfaction nationwide.

BACKGROUND

Medicare l+ngram

Medicare isa Federal health insurance program forpeopleage65       andolder and for
certain categories of disabled people. Nationally, Medicare serves approximately 33
million people known as beneficiaries. There are approximately 1.2 million Medicare
beneficiaries in the State of Michigan.

The Medicare program has two parts. Part A (hospital insurance) helps pay for
inpatient hospi~al care, some inpatient care in a skijled nursing facility; sfilled home
health care, and hospice care. A person entitled to Medicare automatically receives
this coverage. Part B (medical insurance) covers physicians’ services, outpatient
hospital services, and other medical services and supplies. Part B is optional.
Beneficiaries desiring this coverage pay a monthly premium. Both Part A and Part B
have deductible and coinsurance requirements. Beneficiaries must pay these either
out of pocket or through supplemental insurance coverage.

The Health Care Financing Administration (HCFA) within the Department of Health
and Human Semites (HHS) has responsibility for the Medicare program. However,
other organizations share in Medicare’s administration. Private health insurance
companies contract with the Federal Government to setice claims for Medicare
payment. Insurance companies that handle Part A claims are called intermediaries.
Those handling Part B claims are called carriers. In Michigan, Blue Cross and Blue
Shield of Michigan seines as both intermediary and carrier.

Past studies

In 1989 and 1991 the Inspector General conducted national surveys of Medicare
beneficiaries to assess their awareness of and satisfaction with various aspects of the
Medicare program. In addition, the Inspector General conducted similar surveys of
beneficiaries in Georgia and New Jersey. The HCFA requested both of these State
surveys due to reports of beneficiary dissatisfaction with the Part B carriers in those
States. See Appendix A for a bibliography of related Inspector General reports.




                                            1

Michigan

In 1990, HCFA received a petition of approximately 1,500 signatures from the
Advocacy Organization for Patients of Providers located in East Lansing, Michigan.
The organization asked HCFA to provide an alternative carrier to administer the
Medicare program in Michigan due to the poor quality of service provided by the
Michigan carrier. In response to this petition, HCFA undertook a survey of physicians
in Michigan to gauge their satisfaction level with the Michigan carrier.

Annually, HCFA measures carrier performance through the Contractor Performance
and Evaluation Program (CPEP).l The overall performance rate for the Michigan
carrier dropped from 96 percent in Fiscal Year (FY) 1990, to 90 percent in FY 1991.
Also, the CPEP rate for the Michigan carrier in the specific function of claims
processing dropped to 72 percent in FY 1991 from 90 percent in FY 1990. A carrier
that attains a score of fewer than 70 percent on a functional criterion is considered to
have failed that criterion. In 1992, the overall CPEP rate rose back up to 96 percent,
and the rate for the specific function of claims processing rose to 100 percent.

Due to the petition, the past CPEP rates and other reports of problems with the
Michigan carrier, HCFA requested that the Inspector General conduct a satisfaction
survey of Michigan beneficiaries in comparison with beneficiary satisfaction levels
nationwide. The Office of Inspector General conducted its last national sumey in
1991. Because 1992 was an election year and much media attention was focused on
health care issues, Medicare beneficiaries attitudes about Medicare might have
changed. Therefore, to more accurately compare the satisfaction of national and
Michigan beneficiaries, we conducted the Michigan survey at the same time as the
1993 national survey. See Medicare Z3enefkia~ Satisfaction: 1993, 0EI-04-92-O0480.

METHODOLOGY

Sunq

We selected a random sample of 1,283 Michigan beneficiaries from Medicare Part B
claims submitted in calendar year 1991. We mailed surveys to these beneficiaries in
February 1993. After the initial mailing, we sent a reminder letter followed by a new
survey to those who did not respond.

We received and entered into a database 1,057 sumeys, a response rate of 82 percent.
Forty-seven blank surveys were returned for various reasons and not entered into our




    lThe CPEP is a review and appraisal system which uses results and output
oriented measures based on standards and criteria required by Section 1816(f) of the
Social Security Act. The CPEP is intended by HCFA to enhance contractor
performance and is reported in the Annual Contractor Evaluation Report.


                                            2
database. See Appendix B for more about the methodology.       Appendix C contains an
analysis of respondents vs. non-respondents.

Comprkon

The same survey form was administered to both national and Michigan beneficiaries.
A copy of the questionnaire with the Michigan vs. national responses is in Appendix
D. We compared national and Michigan beneficiaries’ responses using a Chi-square
test of independence along with a statistical test comparing the difference between
binomial proportions to determine whether the geographic location of a beneficiary
influences their satisfaction with Medicare as measured through the survey. The
geographic location of a beneficia~ acts as a proxy for the carrier.

SCOPE

We did not design a survey to specifically measure Michigan Medicare beneficiaries’
satisfaction with the Michigan Part B carrier. Rather, the survey measures beneficiary
satisfaction with Medicare semices overall, including both Parts A and B. Questions
20-25 in the questionnaire most directly address Part B carrier functions.

This inspection was conducted in accordance with the Quality Standards for
Inspections as developed by the President’s Council on Integrity and Efficiency.




                                           3

                                     FINDINGS


Ove@ the responses offered by Michigan beneficiaries are similar to those offered

by national beneficiaries.


Seventy-five percent of beneficiaries nationwide and 72 percent of Michigan

beneficiaries think the Medicare program is understandable.     Also, of the proportion

of national and Michigan beneficiaries who have used hospital and/or home health

services in the past, approximately 60 percent of both understood what Medicare paid

for the last time they used the service. Sixty-four percent of national and 65 percent

of Michigan beneficiaries knew before taking the survey that Medicare limits how

much doctors can charge for specific services. Thirty-eight percent of national and 39

percent of Michigan respondents say that the best way to inform them of Medicare

changes is to mail them a new Medicare handbook. Thirty-four percent of

respondents in both groups say the best way to inform them of Medicare changes is to

mail them

pamphlets about the changes.


Both national and Michigan         Figure 1

beneficiaries offered positive
responses about Medicare
                                             Beneficiaries Are Satisfied with Claims Processing
claims processing. Eighty-
                                          110
three percent of national and
                                          la                                                 Legend
82 percent of Michigan
respondents said they were
                                           w
                                              1 SSS2	
                                                                                        � Nathmal
very or generally satisfied
                                                                                        � Michigan
with the way Medicare
processed their claims. Nine
percent of national and 11
percent of Michigan
beneficiaries were neither
satisfied nor dissatisfied with                             9 11

the way Medicare processed
their last claim, Only 4                        satisfii neither dissatisfiednotyetpaidclaim
                                       Sy Pe?cultalp
percent of national and 5
percent of Michigan
respondents were generally
 or vexy dissatisfied with their last claims processing.




                                                   4

Equal
  .    numbers of national and Michigan beneficiaries experienced the same problems
with their last Medicare claim for a doctor’s visit:

Table 1
                                                                        ,
 Problem                                          National   Michigan


 I did not have a problem with my                 65%        66%
 Medicare claim.
  I did not understand what part of my            15%        14%
  claim was paid and why.
  I did not understand the notice (EOMB)          13%        15%
  Medicare sent after processing my claim.
  Medicare took too long to pay the claim.        9%         8%
  I did not understand why Medicare               8%         6%
  denied the claim.
  I had difficulty getting information from       3%         2%
  Medicare on the status of my claim.

There are some questions where the differences between Michigan and national
respondents are statistically significant 2. The following differences in this report focus
on the beneficiary’s contact with the carrier. See Appendix D for a COPYof the
questionnaire with a breakout of all Michigan/national responses.

Michigan beneficiaries   are less satisfied with the service they receive when they call
their carrier.

Twenty-two percent of Michigan beneficiaries were dissatisfied with the sexvice they
received the last time they called their carrier compared to 14 percent nationally (see
Figure 2.) Furthermore, while 74 percent of national beneficiaries were satisfied
with the service they received, only 60 percent of Michigan beneficiaries were satisfied.




   2Unless otherwise noted, all differences from this point on reported between
Michigan and national beneficiaries are statistically significant.


                                              5
               Figure 2

                     BENEFICIARY SATISFACTION
                     00 74 WithSenke When Caillng the Carrier
                     76
                     m
                     m %zl                                                            �     Na;m~
                      00
                                         ;
                                                                                      �     Michigan
                      66
                      60

                      46

                      40

                      Sa

                      w

                      2s                                                   22

                      20

                      15                                             14

                      10

                       K
                       .   I
                                Satisfii           neither        diss&isfied
                  ‘---mP




When asked what specific problems they might have had when calling the carrier, 51
percent of national compared to 39 percent of Michigan beneficiaries said, “I did not
have a problem with the service I received.” Michigan beneficiaries most frequently
mentioned ‘The line was busy,” as a problem when calling the carrier. Figure 3 shows
the problems and percentages mentioned by national and Michigan beneficiaries.



               Figure 3


                ~Beneficiaries’                Problems Wkh Calling the Carrier
                 Natkmsl                                               Michigan
                                                        No Fmblenm                                   39




               I*                   27           Puton HoldToo Lono                             33
                                                                                                          I
               I*              17                  Canllkihg
                                                           Aluwen                      20
                                                                                                          I
               I@1010                        cuuutiatundmtmd~                    11
                                                                                                          I
                I@                       Fef80n&WOlkq
                                                  NotOM1001M
                                                          P
                                                                             9
                                                                                                          I

                I@    9                  Couldnt GotQudon Anawued                 14
                                                                                                          I




                                                             6

Three times more Michigan beneficiaries (10 percent) than national beneficiaries (3
percent) also said they had''other'' problems when calling the carrier. Among these
“other” problems, the amount of time and phone calls it took to solve the problem was
most often stated. This was most completely expressed by a beneficiary who wrote, “It
took 10 phone calls and 2 visits to a local office over 5 months to finally find someone
to explain and take action to get a check processed for a claim from November 1991.”
There were no national beneficiaries who expressed this type of problem in the “other”
category.

More Michigan beneficiaries consider the carrier a place to go for information   about
Medicare, but fewer actually contact the carrier.

Forty percent of Michigan compared to 32 percent of national respondents consider
the carrier a source for information about Medicare. However, both Michigan and
national beneficiaries (about 55 percent) most often listed The Medicare Handbook as
their source for information about Medicare.

Although more Michigan beneficiaries consider the carrier as a place to go for
information, fewer Michigan beneficiaries actually contact their carrier. Twenty-four
percent of Michigan beneficiaries have called their carrier in the past compared with
29 percent of national beneficiaries. In addition, 33 percent fewer Michigan
beneficiaries have contacted the carrier to obtain the name of a participating doctofi.




    3Medicare participating doctors agree to charge no more than Medicare’s
approved amount. Medicare pays 80 percent of the approved amount. The
beneficiary pays the 20 percent coinsurance after meeting the deductible.


                                            7
                            CONCLUSION•


The results of this survey show that Michigan beneficiaries are less satisfied with the
telephone service they receive from Blue Cross Blue Shield of Michigan.
Furthermore, our review of the Michigan carrier’s CPEP scores revealed that in the
last few years the Michigan carrier has consistently scored low in the criterion of
beneficiary and provider services. The primary cause has been their inability to
answer incoming beneficiary telephone calls timely. We hope that HCFA will use this
information along with its CPEP review to improve the service that beneficiaries
receive in Michigan from the carrier.




                                            8

                            APPENDIX                   A•

                                      Bibliography


Office of Inspector General, United States Department of Health and Human
Services. A Survey of Medicare Beneficiary Satisfaction. 0EI-04-89-89040. October
1989.

Ibid. Benejcia~ Satkfaction with Geoy”a’s Medicare Cam”er. OEI-O4-9O-O1O5O.
February 1990.

Ibid. New Jersey Medicare Beneficia~ Satzkfachon. 0EI-02-90-02040.    October 1990.

Ibid. Medicare Benejcia~   Satisfaction: 1991. 0EI-04-90-89030.   October 1991.

Ibid. Medicare Beneficia~ Satisfaction: 1993. 0EI-04-92-O0480.    Draft report.




                                          A-1

                            APPENDIX                   B•

Methodology

The purpose of the survey was to assess beneficiary experience and satisfaction with

the Medicare program in Michigan. The sample universe was comprised of

beneficiaries who received Part B Medicare Benefits in Calendar Year 1991.


From approximately 1.1 million individuals who received such benefits, a non-stratified

simple random sample was selected.


The sample size was calculated to produce an estimate within 3.5 percent of the true

value at the 95 percent confidence inte~al. To arrive at the sample size, standard

equations were used for estimating sample size with a binary response variable.


We drew a sample of 1,450 Health Insurance Claim Numbers (HICNS) using

systematic random sampling. From this list of 1,450 HICNS we excluded all

beneficiaries who had a date of death on the file and those who were in an HMO as

of January 1993. This left a total of 1,283 individuals in Michigan who are receiving

semices under the Fee-for-service mechanism and were alive as of January 1993.


On February 4, 1993, questionnaires   were mailed to 1,283 beneficiaries in the State of

Michigan. A follow-up letter was

sent on February 16, 1993 to 783

beneficiaries. Another survev and       _ . . .

letter was mailed on Februa& 23,        ‘l”able 1
1993 to 580 beneficiaries who had                     Reasons for Return
not responded.
                                          Returned because of death               15
A total of 1,057 beneficiaries
responded, for a response rate of         Returned as undeliverable               13
82 percent. Forty-seven                   Returned for other reasons              19
incomplete surveys were returned          (alzheimer, incapacity)
for various reasons (see Table I.)
                                          Total                                   47
Com~arison of National Survev

At the same time the Michigan questionnaire was mailed, the same questionnaire was
mailed to a national sample of beneficiaries. The national survey was used to
compare the responses from the Michigan survey. Using a Chi-square test of
independence along with a statistical test comparing binomial proportions, we
determined whether the geographic location (carrier) of beneficiaries influences how
beneficiaries would respond.




                                          B-1

                            APPENDIX                   C•

ANALYSIS    OF RESPONDENTS         VS. NON-RESPONDENTS

An important consideration in surveys of this type is the bias that maybe introduced
into the results if the non-respondents are different from those responding to the
survey. To test for the presences of any bias, we obtained demographic information
for all individuals to whom questionnaires were sent. For the 1,283 individuals, we
determined their Medicare status, sex and race. These categorical data were tested
using a Chi-square with the appropriate degrees of freedom.

The results are presented in Table A, The Chi-square values given in the table
provide a test of the difference in the distribution of the respondent versus the non-
respondents for the variable. The table also provides the response rates for the
different values of the variables.

Examination of the table show that two variables have a statistically significant
difference between respondents and non-respondents; Medicare status and race. An
analysis of the effect of non-responses by Medicare status and race follows Table A.

However, the effect of the non-responses is inconsequential and within the bounds of
our confidence level, plus or minus 3.5 percent. Given the results of these analyses,
we believe that the results fairly represent the opinions of the sample of beneficiaries
to whom questionnaires were sent.




                                          c-l
MEDICARE    STATUS

                                       Non                                    Percent
                Responders          Responders               Total          Responding
Aged             964      91.2%       194      85.8%           1158               83.2%
Disabled          93       8.8%           32     14.2%           125              74.4%

Total           1057                  226                      1283               82.4%
                                                                       CHI-SQ=6.061*
                                                                                 D.F.=1

SEX

                                       Non                                    Percent
                Responders          Responders               Total          Responding
Male             421      39.8%           84     37.2%           505              83.4%
Female           636      60.2%       142        62.8%           778              81.7%
Total            1057                 226                       1283              82.4%
                                                                       CHI-SQ=O.553
                                                                                 D.F.=1

RACE

                                       Non
                Responders          Responders
White             939     88.8%       175        77.4%   *

Non-White         100      9.5%           44     19.5%           144 I            69.4%
Unknown            18        1.7%          7      3,1%               25 I         72.0%

Total       I    1057 I               226 I                     1283 I            82.4%
                                                                     CHI-SQ=21.263+
                                                                                 D.F.=2
                                                              * Significant at P <.05
                                                             + Significant at P <.05




                                    c-2
For Medicare status, survey results show that 72 percent of the aged beneficiaries
understood the Medicare program while only 65 percent of the disabled beneficiaries
understood the Medicare program. To determine the effect of this difference, we
undertook an analysis of non-responders. We assumed that a non-responder would
answer the same as a responder with the same status would answer the question. (See
Table B for a complete break down of questions la, lb and lc.)

                              Table B - Medicare Status

                                      Percent             Adjusted Percent
               Question            Answering Yes           Answering Yes
                 Q-la.                 72.4%                   72.3%
                 Q-lb.                 67.8%                   67.7%
                 Q-1.c.                64.2%                   64.19Z0

Similarly, for race, sumey results show 73 percent of whites understood the Medicare
program. The survey results for non-whites was 66 percent, while the results for
unknown was 89 percent. A more important observation is that approximately 69
percent of non-whites responded to the sumey, while over 84 percent of whites
responded. (See Table C for a complete break down of questions la, lb and lc.)

                                   Table C - Race

                                    Percent               Adjusted Percent
              Question           Answering Yes             Answering Yes
                Q-la.                 72.4%                    72.39Z0
                Q-lb.                 67.8%                    67.7%
                Q-1.c.                64.2T0                   64.2%




                                         c-3
                                  APPENDIX                 D


COMPARISON         OF NATIONAL           SAMPIE    WIT’H MICHIGAN    SAMPLE

The percentages       are shown in bold, while the number of response are italicized and in
pare~thesis. fiotall questions till addupto      100percent due to rounding. Questions with
statistically significant (p < .05) differences are marked with an asterisk.

                                                           National           Michigan
                                                           Percentage         Percentage
Question                                                   (Responses)        (Responses)

PART 1:          MEDICARE        COVERAGE

1.     In gene~        do you think...


       a.        The Medicare program is

                 understandable?

                 YEs
                                             75V0        72%
                                                                  (753)       (721)
                 NO
                                              25%         28%
                                                                  (256)       (275)



       *b.       You can get information about

                 Medicare when you need it?

                 YEs
                                             72$Z0       68%
                                                                  (730)       (g)
                 NO
                                               7%
                                                                  (76)        (61)
                 DON’T KNOW
                                      21%         26%
                                                                  (215)       (268)

       *
            c.   Medicare pays your claims

                 quickly enough?

                                                                  71%         64%
                                                                  (727)       (653)
                 NO
                                              15%         14%
                                                                  (153)       (145)
                 DON’T KNOW
                                      14%         21%
                                                                  (144)       (219)




                                                  D-1

                                                      National             Michigan
                                                      Percentage           Percentage
Question                                              (Responses)          (Responses)

2     What types of medical     insurance   do you or your spouse    have in addition    to
      Medicare?

       (Check all that apply)

              DO NOT HAVE ADDITIONAL
               INSURANCE COVERAGE                            20%           17%
                                                             (199)         (170)
              MEDICAID                                       11%            9%
                                                             (111)         (94)
              *HEALTH INSURANCE THROUGH YOUR
               OR YOUR SPOUSE’S CURRENT OR
               FORMER EMPLOYER               33V0                          52%
                                             (329)                         (537)
              *PRIVATE MEDICARE SUPPLEMENT	  27%                           18%
                                             (273)                         (181)
              CHAMPUS	                                       .5%           .5%
                                                             (5)           (5)
              *OTHER	                                        24V0          20%
                                                             (238)         (200)

3.     Do you feel at this you are in good health?

              YEs                                            67%            64%
                                                             (664)          (644)
              NO                                             33%            36%
                                                             (331)          (370)




                                            D-2
                                                       National              Michigan
                                                       Percentage            Percentage
Question                                               (Responses)           (Responses)

4.    Thinking about the most recent time you were a patient in at hospital for a least one
      nigh~ was it clear to you what Medieare paid for?

       (Check w   answer.)

             I HAVE NOT BEEN IN THE HOSPITAL
              FOR AT LEAST ONE NIGHT SINCE
              I HAVE HAD MEDICARE COVERAGE                     34%           34%
                                                               (352)         (350)
             YES, IT WAS CLEAR WHAT MEDICARE
              PAID FOR                         40%                           37%
                                               (416)                         (384)
             NO, IT WAS NOT CLEAR WHAT MEDICARE
             PAID FOR                          15%                           16%
                                                               (151)         (169)
             I DO NOT REMEMBER IF IT WAS CLEAR
              WHAT MEDICARE PAID FOR           10%                           1270
                                                               (100)         (122)
             MEDICARE        HAS NOT YET PAID THE
             HOSPITAL                                          1%             170
                                                               (13)           (14)




                                           D-3

                                                       National               Michigan
                                                       Percentage             Percentage
Question                                               (Responses)            (Responses)

5.	   Thinking about the last time you received medical services in vour home from a
      home health a~encv , was it clear to you what Medicare paid for?

       (Check w    answer)

       I HAVE NOT RECEIVED MEDICAL SERVICES
        FROM A HOME HEALTH AGENCY SINCE I
        HAVE HAD MEDICARE                                     789Z0           74%
                                                              (783)           (765)
       YES, IT WAS CLEAR WHAT MEDICARE
        PAID FOR                                              15%             15%
                                                              (154)           (157)
       *NO, IT WAS NOT CLEAR WHAT MEDICARE
        PAID FOR                                               370             5%
                                                              (30)             (49)
       I DO NOT REMEMBER         IF IT WAS CLEAR
       WHAT MEDICARE          PAID FOR                         3%              4%
                                                              (30)             (37)
       MEDICARE HAS NOT YET PAID FOR THE
       HOME HEALTH SERVICES                                     1%             270
                                                               (12)           (21)


6.	    Thinking about the last time you went to the doctor, was it clear to you before vou
       went what Medicare would pay for?

       (Check ~    answer)

       *I HAVE NOT BEEN TO THE DOCTOR               SINCE
           I HAVE HAD MEDICARE                                        4%              2940
                                                                      (36)            (17)
       YES, IT WAS CLEAR WHAT MEDICARE               WOULD
        PAY FOR                                                       55%             57%
                                                                      (563)           (586)
       NO, lT WAS NOT CLEAR WHAT MEDICARE
        WOULD PAY FOR                                                 34%             36%
                                                                      (348)           (367)

       I DO NOT RECALL	                                               7%              6%
                                                                      (74)            (57)




                                          D-4

                                                      National              Michigan
                                                      Percentage            Percentage
Question                                              (Responses)           (Responses)

7.	   Did you know before today that Medicare limits how much doctors can charge you
      for specific seMces?

                                                                    64%            65%
                                                                    (653)          (664)
      NO                                                            36%            35%
                                                                    (373)          (354)



*8.    If you should ever need nursing home care, do you have a way to cover the cost?

              YEs                                                   37%            26%
                                                                    (362)          (229)
              NO (skip to Q-10)                                     60%            70%
                                                                    (587)          (622)
              I AM CURRENTLY        IN A NURSING HOME
                   (Skip to Q-n)                                     3%             3%
                                                                     (32)           (39)

9.	    Listed below are some ways people might pay for nursing home care. Which of these
       would you rely on if you ever needed nursing home care for more than 5 months?

       (Check all that apply.)

              PERSONAL SAVINGS                                      56%            63%
                                                                    (160)          (137)
              RETIREMENT         INCOME                             44%            44$?0
                                                                    (126)          (96)
              PRIVATE INSURANCE                                     3170           28%
                                                                    (88)           (61)
              *MEDICAID                                             30%            1970
                                                                    (87)           (42)
              EQUITY IN YOUR HOME                                   32%            26%
                                                                    (91)           (57)
              OTHER                                                  9%             6%
                                                                     (25)           (14)




                                          D-5

                                                           National              Michigan
                                                           Percentage            Percentage
Question                                                   (Responses)           (Responses)
*
    10.	   Many people think Medicare will pay for long-term nursing home care. It currently
           does not. Before today, did you think that Medicare WOULD PAY for long-term
           nursing home care for more than 5 months?

                 YEs                                                     24%            32%
                                                                         (222)          (244)
                 NO                                                      76%            68%
                                                                         (702)          (527)


PART 2           GETTING     INFORMATION       ABOUT     MEDICARE


11.	       The following are some places people might go to get answers if they have question
           about what Medicare pays for.

                  *YOUR    DOCTOR’S OFFICE                               4870           53%
                                                                         $322)          (:s4)
                 A FRIEND OR RELATIVE
                                                                         (103)           (86)
                 AARP OR OTHER MEMBERSHIP
                  ORGANIZATION                                           20%            19%
                                                                         (200)          (199)
                  *INSURANCE COMPANY THAT PROCESSES
                   YOUR MEDICARE CLAIMS                                  32%            40%
                                                                         (324)          (415)
                  THE SOCIAL SECURITY         OFFICE                     45%            47%
                                                                         (465)          (489)
                  *A LOCAL SENIOR CITIZENS’ GROUP                         870            12%
                                                                         (83)           (120)
                  AN INSURANCE       SALESPERSON                          2%              1%
                                                                          (17)           (13)
                  THE MEDICARE       HANDBOOK                            54%            55%
                                                                         (552)          (s4!;)
                  OTHER                                                   4%
                                                                         (40)           (30)




                                              D-6

                                                      National              Michigan
                                                      Percentage            Percentage
Question                                              (Responses)           (Responses)

12.	   When you have needed speeific information about what Medicare pays for, how often
       were you able to get the information you needed?

       (Check ~.)

             MOST OF THE TIME                                       39%            36%
                                                                    (3!&)          (368)
             SOME OF THE TIME                                                      16%
                                                                    (182)          (167)
             SELDOM OR NEVER                                         8%             7%
                                                                    (82)            (73)
              I HAVE NEVER NEEDED
                INFORMATION                                         35’ZO          40%
                                                                    (360)          (411)




                                          D-7

                                                         National              Michigan
                                                         Percentage            Percentage
Question                                                 (Responses)           (Responses)

13.	   Listed below are ways the Government   could use to tell people about changes in the
       Medieare program.

       Which way is best for notifying you of Medieare changes?

       (Please check ONLY ONE.)

           ANNOUNCEMENTS          ON TELEVISION
             AND RADIO                                                 7940           670
                                                                       (70)           (60)
             PAMPHLETS DESCRIBING             THE CHANGES
              MAILED TO ME                                             34%            34%
                                                                       (357)          (357)
             NOTICES INCLUDED         WITH MY SOCIAL
              SECURITY CHECK                                           17%            19%
                                                                       (179)          (193)
             A NEW MEDICARE HANDBOOK
              MAILED TO ME THAT INCLUDES              THE
              CHANGES                                                  38$Z0          39%
                                                                       (394)          (403)
             ANNOUNCEMENTS          IN THE
              NEWSPAPER                                                 1%             1%
                                                                        (12)           (lo)
              SPEECHES OR PRESENTATIONS             BY
               MEDICARE REPRESENTATIVES                                 1%            .9%
                                                                        (11)           (9)
              OTHER                                                    .8$Z0          .970
                                                                        (9)            (9)




                                          D-8

                                                  National              Michigan
                                                  Percentage            Percentage
Question                                          (Responses)           (Responses)

14.   How many times in the past year have you used your Medicare Handbook?
      (Check ~.)

              1 TO 3 TIMES                                      36%            34%
                                                                (368)          (338)
             MORE THAN 3 TIMES                                   6%             5%
                                                                (57)           (50)
             *I HAVE NEVER USED THE MEDICARE
              HANDBOOK (Skip to Q-17)                           34%            42%
                                                                (345)          (419)
             I DO NOT KNOW WHAT THE MEDICARE
               HANDBOOK IS (Skip to Q-17)                        3%             470
                                                                (27)           (39)
              *I DO NOT RECALL RECEIVING A
               MEDICARE HANDBOOK (Skip to Q-17)                 21%            16%
                                                                (213)          (158)


15.   Do you think the Medicare Handbook   is:

       (Check ~.)

             VERY HELPFUL                                       27%            24%
                                                                (113)          (91)
             GENERALLY       HELPFUL                            66%            69%
                                                                (:2&)          (2SJ)
             GENERALLY       NOT HELPFUL
                                                                (19)           (22)
             NOT HELPFUL AT ALL                                 2%              1%
                                                                (7)             (2)




                                       D-9

                                                         National                Michigan
                                                         Percentage              Percentage
Question                                                 (Responses)             (Responses)

16.    Thinking about the Medicare Handbook       you have receive~    would you say that...

       a.	   The wording is easy to understand?
             YEs                                                        80%             84%
                                                                        (313)           (294)
             NO                                                         20%             16%
                                                                        (78)            (.55)
       b.    The lettering is large enough to read?
             YEs                                                         94%            92%
                                                                         (344)          (300)
             NO                                                           670            8%
                                                                         (23)           (27)

       c.	   It covers enough information?
             YEs                                                         8s%            8s%
                                                                         (283)          g;)
             NO                                                          15%
                                                                         (51)           (45)

PART 3:      MEDICARE      CLAIMS

17.	   Did you know before today that your doctors are supposed         to file your Medicare
       claims for you?

             YEs                                                         90%            89%
                                                                         (92;)          ~1)
             NO
                                                                         (loo)          (111)




                                         D-10

                                                      National              Michigan
                                                      Percentage            Percentage
Question                                              (Responses)           (Responses)

18.    Over~    how satisfied are you with the way Medicare has processed your claims?

               VERY SATISFIED                                       37%            33%
                                                                    (378)          (339)
               GENERALLY     SATISFIED                              46%            49%
                                                                    (472)          (494)
               NEITHER SATISFIED NOR
                DISSATISFIED                                         9%            11%
                                                                    (91)           (110)
               GENERALLY     DISSATISFIED                            370            3%
                                                                     (26)           (35)
               VERY DISSATISFIED                                     l%             270
                                                                     (12)           (16)
               *MEDICARE     HAS NOT YET PAID CLAIM                  4%             2%
                                                                     (39)           (20)




                                         D-II

                                                          National               Michigan
                                                          Percentage             Percentage
Question                                                   (Responses)           (Responses)

19.        Did you have any of the following problems the last time you had a Medicare claim
           for a doctor’s visit?

           (Check as manv as apdy.)

                 I HAD DIFFICULTY       GETTING INFORMATION
                  FROM MEDICARE         ON THE STATUS OF
                  MY CLAIM                               3%                              2%
                                                       (27)                             (25)
                 I DID NOT UNDERSTAND  WHAT PART OF MY CLAIM
                  MEDICARE PAID AND WHY                 15%                             1470
                                                        (144)                           (136)
                 I DID NOT UNDERSTAND  WHY MEDICARE
                  DENIED THE CLAIM                     8%                                6%
                                                        (79)                            (60)
                 MEDICARE TOOK TOO LONG TO PAY
                  MY CLAIM                             9%                                8%
                                                        (85)                            (76)
                 I DID NOT UNDERSTAND  THE NOTICE
                  MEDICARE SENT AFTER PROCESSING
                  MY CLAIM. (THE NOTICE IS CALLED
                  “EXPLANATION OF MEDICARE
                  BENEFITS.” )                          13%                             15%
                                                        (128)                           (151)
                 I DID NOT HAVE A PROBLEM WITH MY
                   MEDICARE CLAIM                       65%                             66%
                                                        (643)                           (668)
                 *OTHER                                  3%                              5%
                                                        (34)                            (54)

PART 4. CALLING           MEDICARE
*
    20.	   Have you ever tried to call the insurance   company the processes     your Medicare
           claims?

                  YES - Month and Year of Last Call:                     29%            24%
                                                                         (288)          (228)
                  NO   (Skip to @26)                                     71%            769Z0
                                                                         (708)          (725)




                                             D-12

                                                         National              Michigan
                                                         Percentage            Percentage
Question                                                 (Responses)           (Responses)

21.    Thinking about the last time you tried to cdl, how many tries did it take you to reach
       them?

       (Check ~.)

              FIRST TRY                                                35%            3090
                                                                       (95)           (65)
              SECOND TRY                                               25%            20%
                                                                       (71)           (44)
              *THREE OR MORE TRIES                                     32%            41%
                                                                       (86)           (89)
              NEVER GOT THROUGH                                         890            9%
                                                                       (22)           (19)

22.	   How satisfied were you with the semice you received the last time you called?

       (Check ~.)

              *VERY SATISFIED                                          31%            20%
                                                                       (87)           (43)
              GENERALLY       SATISFIED                                43%            40%
                                                                       (119)          (85)
              *NEITHER SATISFIED NOR
               DISSATISFIED                                             12%           19%
                                                                        (32)          (41)
              GENERALLY       DISSATISFIED                               9%           13%
                                                                        (25)          (27)
              VERY DISSATISFIED                                          5%            9%
                                                                        (13)          (19)




                                           D-13

                                                            National                 Michigan
                                                            Percentage               Percentage
Question                                                    (Responses)              (Responses)

23.	   IJsted below are possible problems someone      might have when calling the Medicare
       insurance campany.

       Did you have any problems the last time you called?

       (Check as manv as auuly.)

              I WAS NOT ABLE TO GET MY QUESTION
                ANSWERED                                                     9%             14%
                                                                            (20)            (31)
              THE LINE WAS BUSY                                             43%             43%
                                                                            (100)           (95)
              I GOT DIFFERENT ANSWERS                FROM
                DIFFERENT PEOPLE                                            17%             2070
                                                                            (39)            (43)
              I WAS PUT ON “HOLD’ TOO LONG                                  27%             33%
                                                                            (63)            (73)
              I COULD NOT UNDERSTAND                 THE
                ANSWER THEY GAVE ME                                          10%            11%
                                                                             (23)           (24)
              THE PERSON ANSWERING THE CALL
               WAS NOT VERY COURTEOUS                                        109IO           970
                                                                             (23)           (19)
              *I DID NOT HAVE A PROBLEM               WITH THE
                SERVICE I RECEIVED                                           50%            39%
                                                                             (116)          (85)
              *OTHER                                                          3%            10%
                                                                             (7)            (23)

24.	   Some Medicare      insurance   companies   use an automated        voice system to handle
       telephone calls.

       Thinking about the last time you called the Medicare              insurance   company      that
       processes your cl-   how was your call answered?

              BY AN AUTOMATED             VOICE                              31%            33%
                                                                             (80)           (62)
              BY A MEDICARE           EMPLOYEE                               69%            67%
               (Skip to Q-26)                                                (177)          (128)




                                             D-14

                                                            National               Michigan
                                                            Percentage             Percentage
Question                                                    (Responses)            (Responses)

25.	       IAsted below are possible reasons that someone would be dissatisfied with calling the
           Medicare insurance company and getting an automated voice.

           Did you have any of these problems the last time you called?


           (Check as manv as am@.)

                  *I DID NOT HAVE A TOUCH-TONE
                   TELEPHONE TO RESPOND TO THE
                   AUTOMATED VOICE SYSTEM                                  73%            35%
                                                                           (35)           (22)
                  I COULD NOT UNDERSTAND THE
                    DIRECITONS GIVEN BY THE
                    AUTOMATED VOICE SYSTEM                                 38%            29%
                                                                           (18)           (18)
                  OTHER                                                    14%            2170
                                                                           (7)            (13)

PART 5: APPEALING             CLAIMS
*
    26.	   Sometimes people disagree with the decisions made on their Medicare claims. When
           this happens, you may appeal or request a review of those decisions.

           Did you know ~               that you could appeal or request a review?

                  YEs                                                      75%            71%
                                                                           (749)          (712)
                  NO                                                       25%            29%
                                                                           (254)          (296)

27.        Have you ever appealed    a decision made by Medicare on a claim you submitted?

                  YEs                                                       6%             5%
                                                                           (60)           (46)
                  NO    (Skip to @30)                                      94%            95%
                                                                           (904)          (930)




                                               D-15

                                                       National              Michigan
                                                       Percentage            Percentage
Question                                               (Responses)           (Responses)

28.    Did you understand the final decision made on your claim?

             YEs                                                     65%            73?40
                                                                     (35)           (24)
             NO                                                      35%            27%
                                                                     (19)           (9)

29.    Do you think your appeal was handled fairly?

             YEs                                                     59%            62%
                                                                     (28)           (18)
             NO                                                      4170           389Z0
                                                                     (20)           (11)

PART 6     GETTING    SECOND    OPINIONS

30.	   If your doctor recommends that you have surgexy, Medicare will help you pay to get
       the opinion of another doctor to make sure the surgery is really necessary.

       Were you aware before today that Medicare      would help to pay for you to get a
       second opinion before having surge~?

             YEs                                                     39%            38%
                                                                     (397)          (392)
             NO                                                      61%            62%
                                                                     (624)          (630)

31.	   Do you think people should be required to get a second opinion form another doctor
       to make sure non-emergeney surgery is really necessary?

             YEs                                                     51%            55%
                                                                     (~;)           (54J
             NO
                                                                     (49)           (39)
             DEPENDS     ON THE TYPE OF SURGERY                      4470           4170
                                                                     (447)          (409)




                                         D-16

                                                             National              Michigan
                                                             Percentage            Percentage
Question                                                     (Responses)           (Responses)

32.	      Thinking about the last time you had non-emergency      surgery, did you get a second
          doctor’s opinion before having the surgery?

                YEs                                                        19%            18%
                                                                           (185)          (184)
                NO                                                         43%            45%
                                                                           (425)          (446)
                 I HAVE NEVER HAD
                   NON-EMERGENCY  SURGERY                                  39%            37%
                                                                           (382)          (369)

PART 7: “PARTICIPATING            DO~ORS”      PROGRAM

33.	      Medicare has “participating doctors” who agree to charge no more than Medicare’s
          approved amount. Medicare pays 80% of the approved amount.          You are only
          responsl%le for paying the deductible and the 2070 coinsurance.

          Before today, had you ever heard about Medicare “participating doctors?”

                 YEs                                                       83%            82%
                                                                           (853)          (848)
                 NO                                                        17%            18%
                                                                           (172)          (189)
*
    34.   Are any of your doctors “participating doctors?”

                 YEs                                                       65%            71%
                                                                           (677)          (735)
                 NO                                                         970            7%
                                                                           (94)           (68)
                 DON’T KNOW                                                2s%            22%
                                                                           (262)          (209)




                                             D-17

                                                              National              Michigan
                                                              Percentage            Percentage
Question                                                      (Responses)           (Responses)
*
    35.	   Have you ever contacted the insurance company that processes you Medicare claims
           to get the names of doctors who are “participating doctors?”

                  YEs                                      6%    4%
                                                          (65)  (43)
                  NO                                      69%   74%
                                                          (703) (734)
                  I DID NOT KNOW I COULD GET THIS INFORMATION
                   FORM THE INSURANCE COMPANY THAT PROCESSES MY
                   CLAIMS                                 24%   21%
                                                          (246) (209)

36.	       Thinking about the future, how likely are you to select a “participating doctor” for
           health care semices?

           (Check ~.)

                  *LIKELY TO SELECT “PARTICIPATING
                   DOCTOR”                                                  65%            70%
                                                                            (634)          (698)
                  NOT LIKELY TO SELECI’
                   “PARTICIPATING DOCTOR’                                    8%             7%
                                                                            (78)           (70)
                  WILL NOT MATTER         ID DOCTOR      IS
                   “PARTICIPATING”                                          27%            23%
                                                                            (262)          (209)

PART 8        HEALTH      CARE FACILITIES

37.	       For people who are interested the Medicare program has information by individual
           hospital on mortality (death) rates of Medicare patients. Were you aware before
           My      that the Federal Government      publishes ‘!Medicare Hospital Mortality
           Information?”

                  YEs                                                        9%             7%
                                                                            (87)           (73)
                  NO                                                        91%            9370
                                                                            (916)          (949)




                                              D-18

                                                              National                Michigan
                                                              Percentage              Percentage
Question                                                       (Responses)            (Responses)

38.	   Have you ever used the “Medicare Hospital             Mortality Information”    to choose     a
       hospital?

                                                                             .4%              Ivo
                                                                             (4)             (10)
              NO                                                             44%             46fzo
                                                                             (449)           (460)
              I DID NOT KNOW ABOUT THE
                MORTALITY INFORMATION                                        55%             53%
                                                                             (565)           (520)

39.	   If in the future you need to be hospitalize         how likely are you to use the mortality
       (death rate) information    to select a hospital?

       [Assume you have a choice of going to one of two hospitals and both are equally
       convenient and seemingly of equal quality. Would you use the mortality information
       to select which hospital to go to?]

              LIKELY TO USE THE INFORMATION                                  56%             59%
                                                                             (525)           (551)
              NOT LIKELY TO USE THE
               INFORMATION                                                   44%             41%
                                                                             (413)           (385)

40.    Who selected your hospital the last time you were hospitalized?

       (Check ~.)

              *YOU                                                           35%             31%
                                                                             (363)           (306)
              *YOUR     DOCTOR                                               48%             54%
                                                                             (488)           (:54)
              YOUR    RELATIVES        OR FRIENDS                             5%
                                                                             (47)            (37)
              AMBULANCE           DRIVER                                      270             2%
                                                                             (20)            (17)
              OTHER                                                           2%              2940
                                                                             (22)            (19)
              I HAVE NEVER         BEEN IN HOSPITAL                           9%              7%
                                                                             (88)            (75)




                                             D-19

                                                         National                 Michigan
                                                         Percentage               Percentage
Question                                                 (Responses)              (Responses)

41.	   The Medicare Program also publishes information of the results on inspections done
       on nursing homes. Before todav, were you aware that the Federal Government had
       this type of information on nursing homes?

                YEs                                                      22%             20%
                                                                         (218)           (205)
                NO                                                       78%             80%
                                                                         (794)           (817)

42.    Have you ever used this information to choose a nursing home?

                YEs                                                       2%              2%
                                                                         (16)            (24)
                NO                                                       6070            56%
                                                                         (592)           (552)
                I DID NOT KNOW ABOUT THE NURSING
                 HOME INFORMATION                                        38%             41%
                                                                         (375)           (405)

43.	   Now that you know about the nursing home informatio~           are you likely to use the
       information if you should need to select a nursing home?

                YES, LIKELY TO USE THE
                 INFORMATION                                             85%             88%
                                                                         (843)           (865)
                NO, NOT LIKELY TO USE THE
                 INFORMATION                                              15%            12%
                                                                          (145)          (120)

44.	   Medicare also publishes a booklet entitled “Guide to Choosihg a Nuning Home.” It
       discusses things to look for in selecting a nursing home, and is available from several
       offitxx+ including your Social Security office.

       Before   today, were you aware Medicare     had information     on choosing    a nursing
       home?

                YEs                                                       10%             9%
                                                                          (97)           (94)
                NO                                                        90?Z0          91940
                                                                          (909)          (932)




                                           D-20

                                                        National              Michigan
                                                        Percentage            Percentage
Question                                                (Responses)           (Responses)

45.    Have you ever used the booklet to help you select a nursing home?

             YEs                                                       1%             1%
                                                                      (9)            (11)
              NO                                                      51%            50%
                                                                      (499)          (490)
              I DID NOT KNOW MEDICARE HAD A
                BOOKLET ABOUT CHOOSING A
                NURSING HOME                                          48%            49%
                                                                      (476)          (488)


46.    Was the booklet helpful?

              YEs                                                      2%             4%
                                                                      (19)           (36)
              NO                                                       2%             2%
                                                                      (17)           (20)
              I HAVE NOT USED THE BOOKLET                             %%             94%
                                                                      (786)          (806)

47.	   Now that you know about the bookle~    are you likely to use it if you should need to
       select a nursing home?

              YES, LIKELY TO USE BOOKLET                              84%            87%
                                                                      (806)          (850)
              NO, NOT LIKELY TO USE BOOKLET                           16%            14%
                                                                      (150)          (133)

48.	   Medicare  also has a booklet entitled “Gui& to Health Ihsurance for People with
       Me&we.” It discusses things you should look for in choosing Medigap insurance to
       supplement your Medicare coverage.     Ig too, is available at your Social Security
       office.

       Before today, were you aware Medicare      had a booklet   to help you choose other
       health insurance?

              YEs                                                     13%            12%
                                                                      (132)          (118)
              NO                                                      87%            88%
                                                                      (865)          (902)




                                          D-21

                                                        National              Michigan
                                                        Percentage            Percentage
Question                                                (Responses)           (Responses)

49.	   Have you ever used the booklet to help you seleet health insurance to supplement
       your Medicare?

              YEs                                                      2%            2%
                                                                      (16)          (23)
              NO                                                      40%           39%
                                                                      (394)         (393)
              I DID NOT KNOW MEDICARE HAD A
                BOOKLET ABOUT CHOOSING OTHER
                HEALTH INSURANCE                                      58%           58%
                                                                      (571)         (585)

50.    Was the booklet helpful?

              YEs                                                      7%            6%
                                                                      (61)          (5s)
              NO                                                       1%            2%
                                                                      (9)           (17)
              I HAVE NOT USED THE BOOKLET                             92%           92%
                                                                      (810)         (832)

51.	   Now that you know Medicare has a booklet to help you choose health insura.nee, are
       you likely to use it should you wish to purchase health insurance to supplement your
       Medicare or to change your current supplemental policy?

              YES, LIKELY TO USE BOOKLET                              65%           a%
                                                                      (619)         (608)
              NO, NOT LIKELY TO USE BOOKLET                           35%           36%
                                                                      (339)         (342)

Is there anything else you want to tell us about Medicare?

              POSITIVE                                                5%            20%
                                                                      (6)           (64)
              NEGATIVE                                                60%           34%
                                                                      (70)          (108)
             MIXED                                                     4%            5%
                                                                      (5)           (17)
              OTHER                                                   30%           41%
                                                                      (35)          (130)




                                          D-22

